INSPECTOR GENERAL’S SEMIANNUAL REPORT TO CONGRESS
         Appalachian Regional Commission
         October 1, 2013–March 31, 2014
A
April 30, 201
            14

M
MEMORAN
      NDUM FOR                   THE
                                   E FEDERAL
                                           L CO-CHAIIR

S
Subject:                          Sem
                                    miannual Rep
                                               port to Conggress

IIn accordancce with the reequirements of the Inspeector Generaal Act Amenndments of 1988, Public Law
1100-504, the Inspector General
                         G        Refo
                                     orm Act of 20 008, Public LLaw 110-4009, and the D
                                                                                      Dodd-Frank W Wall
SStreet Reform
             m and Consu  umer Protecttion Act, Pub blic Law 111-203. I am pleased to ssubmit the O
                                                                                                  Office of
IInspector Geeneral’s Sem
                        miannual Rep port to Congrress.

TThis Semiannual Report to Congresss summarizes the activitiies of our offfice for the 66-month perriod
eending Marcch 31, 2014. During thiss fiscal period, we issuedd eighteen reeports, follow
                                                                                        wed-up on oppen
rrecommendaations and monitored
                      m          conntractor perfformance.

DDuring this period,
             p       the In
                          nspector Gen neral continuued to serve as a membeer of the Couuncil of the
IInspectors General
            G        on In
                         ntegrity & Effficiency (CIIGIE), its Auudit and Insppections andd Evaluationss
CCommittees and participate in Interggovernmentaal Audit Foruums. The Innspector Genneral chairedd a
ssmaller OIG group in ord der to addresss issues direectly impactting these off
                                                                             ffices.

TThe Inspecto
            or General ActA of 1978, asa amended by the Inspeector Generaal Act Amenndments of 1988,
pprovides thatt this report be
                            b forwarded to approprriate Congre ssional com
                                                                         mmittees withhin 30 days aand that
yyou provide whatever ad   dditional com
                                       mments you consider apppropriate.

I appreciate the
             t Commission’s coopeeration with the Office oof Inspector G
                                                                       General in thhe conduct oof our
ooperations.




IInspector Geeneral

E
Enclosure
                                      TABLE OF CONTENTS



                                                                                                     Page

Executive Summary                                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

 I.     Introduction                             ………………………………………….. 1

 II     Background                                .................................1

Appalachian Regional Commission                      ...............................1

Office of Inspector General                       .................................6

 III.   OIG Activity                               ................................6

Audits, Inspections, Evaluations & Reviews            ...............................6

Investigations                                     . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . .. 7

Other                                              . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . 7

 IV.    Reporting Fraud, Waste, and Abuse          . . .. . . . . . . . . . . . . . . . . . . . . …. . . . . . 8

 V.     Legislative & Regulatory Review                   ......... .................... 8

 VI. Dodd-Frank Legislation                            …..………… ……………..………... 8

 VII. OIG Audit Issues                                 ……..………………………..……… 8



Appendices

        A.       Schedule of Reports Issued October 1, 2013 thru March 31, 2014

        B.       Schedule of Audits, Inspections, Evaluation and Review Reports of Questioned or
                 Unsupported Cost

        C.       Schedule of Audit, Inspection, Evaluation and Review Reports with Recommendations
                 that Funds be put to Better Use and Summary of Management Decision

        D.       Definition of Terms Used



                                                      i
                                      EXECUTIVE SUMMARY


ARC grant operations represent the most significant part of ARC’s programs. For this reporting period
our activities included the issuance of eighteen reports, follow-up on significant recommendations in
prior reports, and monitoring contractor performance of grant reviews. This included 13 grant audits
issued during the reporting period, four reports dealing with management issues, and the FY 2013
Financial Statement Audit.

Agency action to improve grant follow-up including use of the Basic Agency Management Report
(BAMR) provides additional information about grant status and permits an improved assessment of
grants needing follow-up.

Follow-up on older Basic Agency grants without any disbursements that were noted in our prior report
disclosed de-obligations of $699,560 in seven cases. Continued emphasis is appropriate for older open
grants for which no disbursements have been made, grants with no additional disbursements for lengthy
periods, open grants with expired performance periods and grants for which the BAMR reports noted
additional potential de-obligations for $2.6 million.

For older ARC administered grants no disbursements were noted in 9 of 14 cases included in prior
reports and de-obligations of $36,722 were reported in three cases.

Twenty-three HUD old administered grants with balances totaling $904,124 that should be de-obligated
remained open and continued emphasis is needed to assure HUD de-obligates these funds so that the
funds can be used for other projects.

Individual grant reviews disclosed that grants were generally implemented in accordance with applicable
regulations and project objectives. Finding and recommendations pertained to matching funds, Davis-
Bacon monitoring, progress reports and questionable costs.

We noted the Tennessee Valley Authority (TVA) that administers ARC infrastructure grants under a
Memorandum of Understanding has advised they will no longer administer such grants which can have
a significant impact on ARC projects in the southern states unless alternative actions are identified,
including administration and monitoring of about 80 open grants.

OMB issued the updated Designated Federal Entity (DFE) in December 2013 that confirmed Dodd-
Frank legislation that established entire Commission/Boards, as the Agency Head. The legislation
provides that Agency Heads can terminate the IG with a two thirds vote of the Agency Head.

The IG, until February 2014 chaired a group of smaller OIGs to address issues that have particular
impact on these offices. The IG is also an active member of the Council of Inspectors General and its
Audit and Inspections and Evaluations Committees and actively participated with respect to OMB’s
major grant reform initiative and Congressional initiatives with respect to small OIGs including
testimony about independent oversight of smaller entities.




                                                   ii
                         PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT

The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully and
currently informed about problems and deficiencies in the Commission's operations and the necessity for
corrective action. In addition, the Act specifies that semiannual reports will be provided to the Federal
Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law 100-
504), are listed below.
                                    Reporting Requirements


Section 4(a)(2)   Review of legislation and regulations                                  Page 8

Section 5(a)(1)   Problems, abuses, and deficiencies                                     Pages 6-9

Section 5(a)(2)   Recommendations with respect to problems, abuses, and deficiencies Pages 6-9

Section 5(a)(3)   Prior significant recommendations not yet implemented                  *

Section 5(a)(4)   Matters referred to prosecutive authorities                            *

Section 5(a)(5)   Summary of instances where information was refused                     *
and    6(b)(2)
Section 5(a)(6)   Listing of audit reports showing number of reports and dollar          App A
                  value of questioned costs
Section 5(a)(8)   Statistical table showing number of reports and dollar value           App B
                  of questioned costs
Section 5(a)(8)   Statistical table showing number of reports and dollar value           App C
                  of recommendations that fund be put to better use

*      None.

                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                       
                                                    iii 
I.        INTRODUCTION

The Inspector General Act Amendments of 1988, (Pub. L. No. 100-504) provides for the establishment
of an Office of Inspector General (OIG) at Designated Federal Entities (DFEs), including the ARC. The
ARC OIG became operational on October 1, 1989, with the appointment of an IG and provision of
budgetary authority for contracted audit and/or investigation activities.

II.       BACKGROUND

A.        APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965, (Pub.L. No. 89-4) established the Appalachian
Regional Commission. The Act authorizes a Federal/State partnership designed to promote long-term
economic development on a coordinated regional basis in the 13 Appalachian States. The Commission
represents a unique experiment in partnership among the Federal, State, and local levels of Government
and between the public and private sectors. It is composed of the Governors of the 13 Appalachian
States and a Federal representative who is appointed by the President. The Federal representative serves
as the Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-
Chair.

   -    Through joint planning and development of regional priorities, ARC funds are used to assist and
encourage other public and private resources to address Appalachia's unique needs. Program direction
and policy are established by the Commission (ARC Code) with the vote of a majority of the State
members and the affirmative vote of the Federal Co-Chair. Emphasis has been placed on highways,
infrastructure development, business enterprise, energy, human resources, and health and education
programs.

  -    To ensure that funds are used effectively and efficiently, and to strengthen local participation,
ARC works with the Appalachian states to support a network of multicounty planning and development
organizations, or local development districts (LDDs), throughout the Region. The 73 LDDs cover all
420 counties in Appalachia. The LDDs’ roles include identification of priority needs of local
communities and assisting with participation in ARC progress.

   -    Administratively, the Commission has a staff of 56 persons that includes 49 Commission
employees responsible for program operations, and the office of the Federal Co-Chair that includes the
three person OIG staff. The Commissions’ administrative expenses, including salaries, are jointly
funded by Federal and State funds.

      -   The Commission's appropriation for FY 2014 was $64.8 million.

Although Congress changed the funding method for the Appalachian Development Highway System
(ADHS) in July 2012, ARC continues to support and participate in completion of the ADHS including
fulfilling planning and approval responsibilities.

ARC’s non-ADHS funds are distributed to state and local entities in accordance with an allocation
formula intended to provide fair and reasonable distribution of available resources. ARC staff has


                                                   1
responsibilities for program development, policy analysis and review, grant development, technical
assistance to States, and management and monitoring. In order to avail itself of federal agency expertise
and administrative capability in certain areas, ARC often relies on other departments and agencies for
program administration, especially with respect to highways and infrastructure projects. For example,
the Appalachian Regional Development Act authorizes the Secretary of Transportation to administer the
Commission's highway programs, with the Commission retaining responsibility for priorities, highway
locations, and fund allocations. ARC relies on Child Agencies, including the Departments of
Agriculture, Commerce and Economic Development Administration and the Tennessee Valley
Authority (TVA), to administer and monitor construction related grants.


The TVA currently administers, under the terms of a Memorandum of Understanding with the
Commission that provides for reimbursement of services, about 80 open ARC grants, primarily in the
southern states of the Region. TVA has recently indicated that they intend to curtail or reduce their
administration services after this fiscal year, which will put additional pressure on the management of
ARC’s grant program. We encourage ARC to continue current discussions with TVA aimed at assuring
effective monitoring of active grants and the acceptance of administrative responsibility by TVA at least
for pending grants that would be difficult to place with another agency. Also, we recommend ARC
explore other alternatives to assure administration of future infrastructure grants in the impacted states.




                                                     2
ARC
  C ORGAN
        NIZATION
               N CHART
                     T




        3
 
    4 
 
B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent Federal audit and investigative unit that reports directly to the Agency
Head.

Role and Authority

The Inspector General Act of 1978, (Pub.L. No. 95-452), as amended in 1988, states that the IG is
responsible for (1) audits and investigations; (2) review of legislation; and (3) recommendation of
policies for the purpose of promoting economy and efficiency in the administration of, or preventing and
detecting fraud and abuse in, the program and operations of the establishment. In this regard, the IG is
responsible for keeping the Agency Head and Congress fully informed about the problems and
deficiencies in ARC programs and operations and the need for corrective action. The IG has authority to
inquire into all ARC programs and activities that are federally funded. The inquiries may be in the form
of audits, surveys, investigations, inspections, evaluations, personnel security checks, or other
appropriate methods. The two primary purposes of these inquiries are (1) to assist all levels of ARC
management by identifying and reporting problem areas, weaknesses, or deficiencies in procedures,
policies, program implementation, and employee conduct and (2) to recommend appropriate corrective
actions.

Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are provided under the ARC Code and implemented by
the Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operation of the OIG neither replaces established lines of operating authority
nor eliminates the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.

Funding and Staffing

The OIG funding level for FY 2013 was $609,000 after sequestration and $658,000 for FY 14. Staffing
consists of the Inspector General, an Assistant Inspector General for Audit, and a Confidential Assistant.
Grant review activities continue to emphasize use of contracted services (e.g., independent public
accounting firms or other OIG offices) supplemented by programmatic and performance reviews
directed by OIG staff.

In order to comply with Pub.L. No. 110-409, the Inspector General Reform Act of 2008, the OIG
funding for FY 2013 included reimbursement of other IGs for counsel, audit and investigative services
via Memorandums of Understanding. We use Treasury OIG for Tax Administration for legal services,
and the Interior OIG for investigation services.




                                                    5
III.   OIG ACTIVITY


A. Audits, Inspections, Evaluations and Reviews

Grant reviews focused on grant implementation and administration in line with ARC and OMB policies
and procedures. Management reviews focused on headquarters program and grant management
activities.

ARC has continued its emphasis on grant follow-up including identification of inactive grants with
potential for termination and de-obligations. For example, follow-up on prior reports identifying old
open grants administered by basic agencies disclosed that ARCs initiation of an annual Basic Agency
Monitoring Report (BAMR) resulted in better identification of project status and initiation of follow-up
action. Consequently the number of grants previously identified as having no activity for lengthy
periods was substantially reduced. Available reports identified seven instances where grants balances
totaling $699,560 in our prior report were de-obligated. BAMR reports also noted seven additional
grants where de-obligations of about $2.6 million could result and 20 additional grants where follow-up
was appropriate due to potential problems that could impact project completion.

In seven other instances of open basic agency grants totaling $255,892, no additional ARC
disbursements were noted for 21 to 78 months.

Continued follow-up on old open ARC open grants is appropriate. Nine of fourteen grants identified in
our prior report remained without any disbursements from 30 to 77 months since approved. Grant funds
totaled $994,819. Also, there were no additional disbursements noted in 3 of 4 cases in our prior report.
Balances of these grants totaled $285,741 and periods between disbursements ranged from 28 to 70
months. In three cases de-obligations of $36,722 were noted.

ARC follow-up has achieved limited success with respect to obtaining necessary information from HUD
in order to de-obligate funds for use on other needed projects. For example, de-obligations of $151,763
applicable to two of 22 grants in our prior semi-annual report were noted. The remaining 20 open grants
and two additional grants for which construction was reported completed between 2005 and 2011 have
balances of $904,124 that are subject to de-obligation.

Twenty open grants with balances had expired performance periods that could result in ineligible costs if
expenditures are made after the expired performance periods.

Audits of 13 grants with values totaling about $4.3 million dollars reported overall implementation of
grants in accordance with policies, procedures and regulations. Findings and recommendations included
accounting system improvements, documentations and support for matching funds, monitoring of Davis-
Bacon, performance measures reporting, eligibility of some costs and viability of one project.

ARC Financial Statement Audit

The financial statement audit for FY 2013 was issued with a clean opinion. The prior five reports have
also been issued with a clean audit opinion since ARC adopted federal financial reporting rules in 2007.




                                                   6
Peer Review

Offices of the Inspectors General (OIGs) are required to perform (and undergo) reviews of other OIG
offices every three years to ensure policies and/or procedural systems are in place that provide
reasonable assurance of compliance with government auditing standards (GAS). The next audit peer
review of ARC OIG is scheduled for FY 2014.

The current audit peer review process, as legislatively mandated, assesses compliance with auditing
standards but does not address issues impacting the efficiency and effectiveness of audit operations
which comprises the largest segment of OIG offices.

The IG continues to recommend to the Council of Inspector General and Legislative Staff that OIG peer
reviews be revised to incorporate assessments of key OIG operational elements such as: planning; timely
reporting; staff development, including training, utilization and supervision; audit follow-up and
inclusion of actual monetary results in Semi-Annual and Annual OIG reports based on implementation
of recommendations

B. INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter has been referred to the Federal
Bureau of Investigation or assistance was contracted with another Federal OIG. Also, the results of
investigations may be referred to the appropriate Federal, State, or local prospective authorities for
action.

C. OTHER

Smaller OIG Groups

Smaller OIG offices have some significantly different operational concerns than larger OIG offices in
trying to maintain effective and efficient oversight of agency programs. One challenge involves the
significant human and capital resources being allocated to the ever growing number of mandated
reviews.

The IG was the coordinator/chair of this group that meets periodically to discuss such issues and
recommends actions/best practices to facilitate smaller OIG operations. The IG testified with respect to
potential legislation dealing with small OIGs and entities not included in the IG Act.

Requests for Information

Each year we receive and comply with requests for information from various governmental entities
compiling statistics on OIG offices or their audited agencies. CIGIE requests information for its annual
OIG profile update and compilation of OIG statistics. The yearly compilation summarizes the results of
audit and inspection activities for of all federal OIG offices.




                                                    7
Appalachian Development Highway System (ADHS) Audits

Since Fiscal Year 1999, ADHS has been funded by the Highway Trust Fund, which is administered in
part by the U.S. Department of Transportation (DOT). ARC retains certain programmatic
responsibilities, but the funding source is the Highway Trust Fund. Under new legislation the ADHS is
a part of a larger Surface Transportation Program grant to Appalachian states, with the states using the
funding at their own discretion.

Implementation of OIG Reform Act

The OIG has implemented the requirements of Pub.L. No. 110-409 the Inspector General Reform Act of
2008. A Memorandum of Agreement for Counsel services is in place with the Treasury Inspector
General for Tax Administration and for investigative services is in place with the Interior Inspector
General.

Going Green

ARC management has implemented green measures within the organization's internal operations.
Examples include a document scanning system that has been linked to ARC’s e-mail system and an
expansion of ARC net to include operational elements. ARC continues to encourage state partners to
move to a paperless application process. Reduction in paper utilization can reduce cost, improve the
timeliness of management decisions through better document storage and retrieval, and helps to reduce
demands on our earth's ecological systems. Our office, in alignment with management's initiative, is
committed to “going green” and we continue to work toward that end.

IV.    REPORTING FRAUD, WASTE, AND ABUSE

A region wide toll-free hotline is maintained to enable direct and confidential contact with the ARC
OIG, in line with governmental and longstanding OIG initiatives as identified in the IG Act of 1978; to
afford opportunities for identification of areas subject to fraud, waste, or abuse. Also, in accordance
with the Inspector General Reform Act of 2008, the ARC OIG implemented another communication
channel allowing anonymous reporting of fraud, waste or abuse via a link on our website’s home page.
The web link is, http://ig.arc.gov/.

V.     LEGISLATIVE AND REGULATORY REVIEW

The OIG reviews legislation germane to ARC, OIG and the OIG community. Our comments are
provided, as appropriate to agency officials, and/or to the CIGIE for incorporation with comments from
all other OIGs.

VI.    DODD-FRANK LEGLISATION – Reporting to Full Commission

OMB issued an updated list of Designated Federal Entity (DFE) Agency Head in December 2013 that
confirmed legislation identifying the 13 Appalachian Governors as part of the Appalachian Regional
Commission (ARC) Agency Head (Commissioners) designations.




                                                    8
VII.   OIGs Audit Performance and Credibility Issues

OIGs audit units have provided very valuable services to the taxpayers including significant monetary
benefits and major program improvements. However, as with any organization, improvements are
possible and within the OIG community there are various areas where OIG audit performance and
credibility can be significantly improved by addressing the following issues.

       -   Develop peer review guides to assess OIG audit efficiency and effectiveness that highlights
           key operational elements, such as planning field work, report timeliness, staff utilization and
           training, supervision, audit follow-up and actual results. The required peer review of
           compliance with audit standards does not address the key operational elements that determine
           OIG efficiency and effectiveness.

       -   Identify outcome based performance measures that, over a multi-year period, identify actual
           savings in relation to the multi billions of potential savings reported annually based primarily
           on questioned and undocumented costs with low actual savings potential. OIG Semi-Annual
           reports identify agreed with disallowances and tracking and reporting agency actions such as
           establishment of claims and recoveries appears practical and reasonable.
           A recent OIG survey of OIG metrics noted that 13 of 14 respondents to a question as to how
           they measured return on investment responded the basis was agreed with recommendations.
           A better basis for identifying the return on investment appears appropriate, such as
           implemented recommendations and actual rather than potential savings.

       -   Develop CIGIE guidance to ensure consistent identification of implemented
           recommendations. OIGs appear to use different criteria regarding implemented
           recommendations, ranging from actually confirming the recommendation was implemented,
           to obtaining implantation plans, to accepting agreement with the recommendation as
           sufficient to consider the recommendation implemented.

       -   There is a significant need to broaden the core competencies with respect to the classification
           of “auditor”. Currently the GS-511 auditor classification requires 24 credits of accounting or
           an equivalent level of accounting credits or experience. However, the large majority of OIG
           audits performed by OIG audit staff are performance, not financial, related for which
           attributes such as evaluation, analysis, oral and written communications and critical thinking
           skills are far more important than accounting for effective performance auditing.

The last issue is currently being studied by the OIG community and OIG support for the addition of a
“performance auditor” classification identifying educational and experience attributes most applicable to
performance auditing would better assure the employment of professional staff with backgrounds suited
to the current and future audit environment.




                                                    9
                                                                                             APPENDIX A



             SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                       ISSUED OCTOBER 1, 2013 TO MARCH 31, 2014




Report No.                     Report Title/Description   Program Dollars or   Questioned/      Funds to Better
                                                           Contract/Grant      Unsupported         Use***
                                                              Amount*            Costs**



 14-01       Kentucky Housing Program                        $500,000



 14-02       Appalachian Rural Dental Program               $500,000



 14-03                                                       $400,000           $3,876
             Ft. Payne Infrastructure

 14-04                                                       $250,000          $221,000
             Winber Medical Center


 14-05       KY Department of Local Government               $151,723



 14-06                                                       $200,000          $30,981
             Energy Efficiency in small Alabama Cities

 14-07                                                       $300,000          $153,935
             Northern Tier Career Center Expansion

 14-08                                                       $226,600            $9,245
             Glade Center Renovation

 14-09
             Financial Statement Audit

 14-10                                                       $500,000          $47,200
             Edwina-Bridgeport Water Improvement

 14-12                                                       $450,000
             Competitive Improvement Program

                                                             $180,000
 14-13       Cumberland Plateau LDD

                                                             $300,000
 14-14       Jasper Water Storage Tank
            Open HUD Administered Grants with Potential   $1,055,763                 $904,124
    14-15
            De-obligations

                                                          $19,000,000                          1
                                                                                   $699,560        /2
    14-16   Older Basic Agency Administered Grants

    14-17                                                 $1,000,000               $36,722    1/
                                                                                                    2
            Older ARC Administrative Grants

    14-18                                                  $14,000
            Administrative Review

    14-19                                                  $436,000
            Pontotoc County Site Improvement

    Total                                                 $25,464,086   $466,237    $1,640,406




1
    Value of grants reviewed for project status
2
    De-obligations based on prior follow-up recommendations
                                                                            APPENDIX B



                   SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS
                              OF QUESTIONED OR UNSUPPORTED COSTS

                                         No. of    Questioned         Unsupported
                                         Reports     Costs            Costs



A.       For which no management           0
decision was made by the
commencement of the reporting period



B.        Which were issued during the     6
reporting period



           Subtotals (A + B)               6        $299                   $167


C.       For which a management
decision was made during the reporting
period



   (i)     dollar value of disallowed
   costs




   (ii)  dollar value of costs not
   disallowed



D.        For which no management          6         $299           $167
decision has been made by the end of
the reporting period



E.      Reports for which no               0
management decision was made within
6 months of issuance
                                                                                         APPENDIX C


       SCHEDULE OF AUDIT, INSPECTION, EVALUATION & REVIEW REPORTS WITH
      RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AND SUMMARY OF
                               MANAGEMENT DECISIONS




                                                                         No. of
                                                                         Reports   Dollar Value


 A.     For which no management decision was made by the                   2          $161
        commencement of the reporting period

 B.     Which were issued during the reporting period                      3         $1,974

        Subtotals (A + B)                                                  5         $2,135

 C.     For which a management decision was made during the
        reporting period

        (i)    dollar value of recommendations that were agreed to by
               management

               --based on proposed management action                       5         $2,135 1

               --based on proposed legislative action                      0            0


        (ii)   dollar value of recommendations that were not agreed to     0            0
               by management



 D.     For which no management decision has been made by the end          0            0
        of the reporting period

 E.     Reports for which no final management decision was made            0            0
        within 6 months of issuance


1. Based on management decisions to follow-up on older open grants. Also $851,413 in de-
obligations resulted from grants identified for follow-up in prior SAR.
                                                                                          APPENDIX D


                                  DEFINITIONS OF TERMS USED



The following definitions apply to terms used in reporting audit statistics:

Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not
                                      supported by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision,
                                      has sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used
                                      more efficiently if management took actions to implement and
                                      complete the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is
                                      issued.
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm. 700

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
On Cover:

New River Gorge Bridge in West Virginia. Photograph by David E. Fattaleh.

Photo courtesy of U.S. Department of Transportation, Federal Highway Administration
(www.fhwa.dot.gov/byways)
   ppalachian Regional
  Ap          R        Coommission

      Office of Inspector G eneral
1666 Connecticu
              ut Avenue, NNW, Suite 7000
     Washington n, DC 200009-1068
